       Office of Inspector General




June 14, 2006

WILLIAM P. GALLIGAN
SENIOR VICE PRESIDENT, OPERATIONS

EDWARD L. SMITH
ACTING VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT:       Transmittal of Audit Report – Management of Delivery Vehicle Utilization
               (Report Number DR-AR-06-005)

This report presents the results of our self-initiated audit of the Management of Delivery
Vehicle Utilization (Project Number 05YG025DR001). The overall objective of this audit
was to assess the management and control of vehicles used to support delivery
operations.

U.S. Postal Service officials have made significant strides in reducing costs associated
with delivery vehicle expenditures over the past 3 years. However, delivery
management officials could further improve the use of vehicles that support delivery
operations. Postal Service officials maintained excess and underused delivery vehicles,
and they leased delivery vehicles from employees and commercial vendors when Postal
Service-owned vehicles were available. Additionally, delivery officials did not monitor
the reasonableness of payments or the need for contracts with employees for use of
their personal vehicles. These conditions existed primarily due to management not
consistently following guidance and not having visibility and control of excess Postal
Service-owned delivery vehicles within their areas. Additional controls over payments
to employees could also reduce the potential for mismanagement or uneconomical
payments. Further, improved use of vehicles and use of excess delivery vehicles could
save the Postal Service more than $22 million in funds put to better use and
unrecoverable costs over the next 2 years and will be reported as such in our
Semiannual Report to Congress.

We recommended delivery officials make better use of delivery vehicles, use excess
vehicles to offset planned purchases of delivery vehicles for rural routes, and reallocate
vehicles between areas as necessary to eliminate shortages. We also recommended
management terminate non-emergency employee and commercial leases where
practicable and establish controls to reduce the potential for mismanagement or
uneconomical expenditures.
Management agreed with our findings, recommendations, and monetary impact and has
initiatives completed and planned addressing the issues in this report. Management’s
comments and our evaluation of these comments are included in the report.

The U.S. Postal Service Office of Inspector General (OIG) cited all recommendations as
significant and, therefore, requires OIG concurrence before closure. The OIG has
reviewed the information provided in support of these recommendations and agrees that
these items should be closed in the follow-up tracking system.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Rita Oliver,
director, Delivery and Retail, or me at (703) 248-2300.

 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick Donahoe
    James Kiser
    Wayne Corey
    Steven R. Phelps
Management of Delivery Vehicle Utilization                        DR-AR-06-005



                                    TABLE OF CONTENTS

 Executive Summary                                                        i

 Part I

 Introduction                                                            1

     Background                                                          1
     Objective, Scope, and Methodology                                   2
     Prior Audit Coverage                                                2

 Part II

 Audit Results                                                           4

      Delivery Vehicle Utilization                                       4

      Excess and Underused Delivery Vehicles                             4
      Recommendations                                                    7
      Management’s Comments                                              8
      Evaluation of Management’s Comments                                9

      Delivery Vehicle Leasing                                          10
      Recommendations                                                   12
      Management’s Comments                                             12
      Evaluation of Management’s Comments                               12

      Controls Over Lease Payments                                      14
      Recommendations                                                   14
      Management’s Comments                                             15
      Evaluation of Management’s Comments                               15

 Appendix A. Cost Savings Methodology: Nationwide Monetary              16
             Impact of Reducing Vehicle Acquisitions and Eliminating
             Employee and Commercial Delivery Vehicle Leases

 Appendix B. Management’s Comments                                      17
Management of Delivery Vehicle Utilization                                           DR-AR-06-005



                                   EXECUTIVE SUMMARY
 Introduction                   This report presents the results of our self-initiated audit of
                                delivery vehicle utilization. The overall objective of this audit
                                was to assess the management and control of vehicles
                                used to support delivery operations.

 Results in Brief               U.S. Postal Service officials have made significant strides in
                                reducing costs associated with delivery vehicle expenditures
                                over the past 3 years. However, delivery management
                                officials could further improve the use of vehicles that
                                support delivery operations. Specifically, Postal Service
                                officials maintained excess and underused delivery vehicles
                                and leased delivery vehicles from employees and
                                commercial vendors when Postal Service-owned vehicles
                                were available. Additionally, delivery officials did not
                                monitor the reasonableness of payments or the need for
                                contracts with employees for use of their personal vehicles.
                                These conditions existed primarily because management
                                did not consistently follow guidance and did not have
                                visibility and control of excess Postal Service-owned
                                delivery vehicles within their areas. Additional controls over
                                payments to employees could also reduce the potential for
                                mismanagement or uneconomical payments. Further,
                                improved use of vehicles and use of excess delivery
                                vehicles could save the Postal Service over $22 million in
                                funds put to better use and unrecoverable costs over the
                                next 2 years and will be reported in our Semiannual Report
                                to Congress. (See Appendix A.)

 Summary of                     We recommended changes to help delivery officials make
 Recommendations                better use of delivery vehicles, use excess vehicles to
                                reduce planned purchases of delivery vehicles for rural
                                routes, and reallocate vehicles between areas as necessary
                                to eliminate shortages. We also recommended
                                management terminate employee and commercial leases
                                where practicable and establish controls to reduce the
                                potential for mismanagement or uneconomical
                                expenditures.

 Summary of                     Management agreed with our findings and
 Management’s                   recommendations. Management provided support for
 Comments                       actions already taken, such as recently conducting vehicle
                                utilization reviews in Washington, D.C., Chicago, and
                                Philadelphia. In addition, management has initiated action


                                                  i
Management of Delivery Vehicle Utilization                                        DR-AR-06-005



                                to develop an electronic Vehicle Use Plan and revise the
                                Standard Operating Procedures for Leasing. Management
                                acknowledges the reduction of vehicles as an opportunity to
                                save $11.9 million in future vehicle purchases and will
                                address this option in the mini-Van Purchase Decision
                                Analysis Report in July 2006. Management also agreed in
                                principle with the unrecoverable costs and the opportunity to
                                save about $8 million through the elimination of
                                non-emergency employee and commercial leases. In
                                addition, management agreed to the one-time savings of
                                $2 million for commercial leases.

                                Management’s comments, in their entirety, are included in
                                Appendix B.

 Overall Evaluation of          Management’s actions taken or planned are responsive to
 Management’s                   our findings and recommendations and should correct the
 Comments                       issues identified in the findings.

                                We acknowledge a discussion with management
                                concerning the use of excess vehicles and those no longer
                                required due to Hurricane Katrina. We informed
                                management during our audit that we would recommend
                                they use at least 615 of the 2,000 excess vehicles and
                                continue to redeploy no longer used vehicles, as
                                appropriate, to reduce the planned purchase of vehicles for
                                rural routes. Management agreed with our assessment and
                                our planned recommendation and indicated that such action
                                would be part of their redeployment strategy.




                                                 ii
Management of Delivery Vehicle Utilization                                                     DR-AR-06-005



                                     INTRODUCTION
    Background                   The U.S. Postal Service maintains a fleet of approximately
                                 188,000 vehicles dedicated to delivering mail. The Postal
                                 Service can augment this fleet as necessary through lease
                                 or rental agreements with employees or commercial
                                 vendors. Guidance requires that managers fully use Postal
                                 Service-owned vehicles before they approve leasing.1 As of
                                 July 2005, the Postal Service was paying approximately
                                 $5 million annually to employees and commercial vendors
                                 to supplement its delivery fleet.

                                 In 2002, headquarters Postal Service Delivery Vehicle
                                 Operations reviewed the allocation of delivery vehicles in
                                 each postal area. In May 2002, the Postal Service directed
                                 a national effort to reallocate delivery vehicles to ensure that
                                 vehicles were available where necessary for delivery
                                 purposes and that the Postal Service used funds wisely.

                                 In May 2005, headquarters Delivery Vehicle Operations
                                 conducted an analysis of Postal Service-owned delivery
                                 vehicles. This analysis compared the number of motorized
                                 routes to on-hand vehicle inventory based on a delivery
                                 policy of one vehicle per route.

                                 In a 2000 - 2004, agreement with the National Rural Letter
                                 Carriers’ Association, the Postal Service plans to provide
                                 15,600 right-hand drive delivery vehicles over a period of
                                 5 years for rural routes. As of December 2005, the Postal
                                 Service had provided 9,360 vehicles for rural routes, with
                                 another 6,240 vehicles to be acquired. The Postal Service
                                 is also conducting a review of city delivery routes that do not
                                 require right-hand drive vehicles. This review is intended to
                                 identify right-hand drive vehicles currently used on
                                 motorized city routes for possible reallocation to rural
                                 routes. The Postal Service has purchased minivans to
                                 replace the right-hand drive vehicles on city routes that they
                                 reallocate to rural routes.




1
 Memorandum from senior vice president, Operations, Vehicle Rental and Lease Requests – Mandatory
Review and Approval Process, dated November 19, 2003.

                                                 1
Management of Delivery Vehicle Utilization                                       DR-AR-06-005




 Objective, Scope, and          The overall objective of this audit was to assess the
 Methodology                    management and control of vehicles used in support of
                                delivery operations. We specifically determined whether the
                                Postal Service used delivery vehicles efficiently to reduce
                                the need for employees to use their personal vehicles and
                                whether they could reduce or eliminate commercial leases.
                                We also determined whether assigned vehicles met
                                established utilization rates.

                                We reviewed controls over leased delivery vehicle
                                inventories and payments. We discussed our observations
                                and conclusions with management officials and included
                                their comments where appropriate. We reviewed
                                documentation, policies and procedures for management
                                and control of delivery vehicles. We also interviewed
                                managers and employees and obtained documentation from
                                various Postal Service area, district, and vehicle
                                maintenance facility (VMF) offices.

                                We reviewed the methods Postal Service officials used to
                                forecast Postal Service-owned and leased vehicle
                                requirements. We examined reports to determine rates of
                                vehicle use and how the Postal Service used vehicles,
                                along with other material necessary to accomplish our audit
                                objective. Although we did not test the reliability of
                                computer-generated data, we verified individual data
                                elements with source documents. We conducted this audit
                                from August 2005 through June 2006 in accordance with
                                generally accepted government auditing standards and
                                included such tests of internal controls as we considered
                                necessary under the circumstances.

 Prior Audit Coverage           The U.S. Postal Service Office of Inspector General (OIG)
                                has issued two audit reports directly related to our
                                objectives.

                                Lakeland District Leased Vehicles (Report Number
                                FF-MA-04-001, dated July 2, 2004). The report stated the
                                Great Lakes Area and Lakeland District were not certain
                                as to their total vehicle needs and could avoid up to
                                $475,000 of vehicle leasing costs. Specifically, the
                                Lakeland District submitted and received approval to lease
                                100 new vehicles upon the expiration of the 1998 lease, at
                                the same time the Great Lakes Area was preparing to


                                             2
Management of Delivery Vehicle Utilization                                      DR-AR-06-005



                                deploy 50 delivery vehicles to the New York Metro Area.
                                Management agreed with our recommendation to complete
                                and submit a vehicle needs analysis to determine overall
                                needs in the area.

                                Delivery Vehicle Utilization - General Services
                                Administration Leased Vehicles (Report Number
                                DR-AR-05-018, dated September 29, 2005). The report
                                stated that unit officials leased a total of 715 General
                                Services Administration (GSA) vehicles for delivery,
                                although Postal Service Headquarters identified a
                                nationwide overage of 787 Postal Service-owned vehicles.
                                We recommended the Postal Service discontinue GSA
                                leases, saving about $1.7 million annually. Postal Service
                                management agreed with our recommendations to eliminate
                                the use of GSA-leased vehicles for delivery and meet their
                                delivery needs by using existing Postal Service-owned
                                vehicles and reallocating vehicles between areas.




                                             3
Management of Delivery Vehicle Utilization                                          DR-AR-06-005



                                    AUDIT RESULTS
 Delivery Vehicle               Over the past 3 years, Postal Service officials have made
 Utilization                    significant strides in reducing costs associated with delivery
                                vehicle expenditures. However, delivery management
                                officials could further improve the use of vehicles that
                                support delivery operations. Specifically, Postal Service
                                officials maintained excess and underused delivery
                                vehicles, and they leased delivery vehicles from employees
                                and commercial vendors when Postal Service-owned
                                vehicles were available. Additionally, delivery officials did
                                not monitor the reasonableness of payments or the need for
                                contracts with employees for the use of their personal
                                vehicles. These conditions existed primarily due to
                                management not consistently following guidance and not
                                having visibility and control of excess Postal Service-owned
                                delivery vehicles within their areas. Additional controls over
                                payments to employees could also reduce the potential for
                                mismanagement or uneconomical payments. Further,
                                improved use of vehicles and use of excess delivery
                                vehicles could save the Postal Service over $22 million in
                                funds put to better use and unrecoverable costs over the
                                next 2 years and will be reported in our Semiannual Report
                                to Congress. (See Appendix A.)

 Excess and                    The Postal Service has over 2,000 vehicles more than
 Underused Delivery            necessary to meet delivery route requirements. Several
 Vehicles                      factors contributed to this excess. Specifically:

                                        •    Postal Service management did not include all
                                             vehicles assigned to delivery routes in their
                                             analysis of delivery vehicle requirements.

                                        •    Hurricane Katrina eliminated, on a long-term
                                             basis, about 250 delivery routes in the
                                             New Orleans area and the need for the
                                             associated vehicles.

                                        •    Employees did not always use assigned delivery
                                             vehicles efficiently.

                               The Postal Service could reallocate excess delivery vehicles
                               to reduce the planned purchase of vehicles for rural routes,
                               saving over $12 million.




                                                4
Management of Delivery Vehicle Utilization                                                              DR-AR-06-005




 Analysis of Delivery               In May 2005, the Postal Service analyzed requirements for
 Vehicle Requirements               motorized city delivery vehicles. Headquarters Delivery
                                    Vehicle Operations based the analysis on the policy of
                                    one vehicle per delivery route, with added factors for
                                    maintenance reserve and growth potential. Although the
                                    analysis revealed a shortage in three Postal Service areas,
                                    it identified a Postal Service-wide overage of 615 delivery
                                    vehicles. The overages consisted of long-life vehicles
                                    (LLVs) and flexible fuel vehicles (FFVs). These are
                                    right-hand drive vehicles primarily used for curbside and
                                    some park and loop routes.2




 Typical FFV and LLV Delivery
 Vehicles




                                              FFV                                          LLV

                                    However, the headquarters analysis did not include one-
                                    and two-ton vehicles, which employees use on motorized
                                    city delivery routes. For example, in large cities such as
                                    Atlanta, Dallas, and San Diego, management often assigns
                                    one- and two-ton vehicles to deliver mail to high-rise
                                    buildings. These vehicles allow carriers to deliver most or
                                    all of the mail for a specific motorized city route, eliminating
                                    the need for multiple trips using LLVs or FFVs.3 Our
                                    analysis showed that management used over 1,300 one-
                                    and two-ton vehicles for motorized city delivery routes, but
                                    the vehicles were not considered in the analysis.




2
  Park and loop routes are routes where a mail carrier drives to a location, parks the vehicle, and delivers
mail for a specified area. The carrier then returns to the vehicle and drives to a new location and begins the
process again.
3
  Flexible-fuel vehicle has a single tank that is powered by any mixture of gasoline and alcohol fuels.


                                                      5
Management of Delivery Vehicle Utilization                                                                      DR-AR-06-005




The Postal Service has over
8,000 one- and two-ton
vehicles.

This is a one-ton delivery truck
making a delivery in downtown
Dallas.




                                   When one- and two-ton vehicles are added to the
                                   headquarters analysis, the Postal Service has an overage of
                                   almost 2,000 delivery vehicles, and only one of the
                                   nine Postal Service areas (Northeast) has a shortage. (See
                                   Table 1.)

                                                    Table 1: Delivery Vehicles Overages/Shortages by Area

                                   Area                      NY     NE     EA    WE    PA     SW    SE    GL      CM    Total

                                   HQ Analysis              (118)   (81)   147   61   (210)   343   330   18      149   6154


                                   Delivery vehicles        163     33     43    36   335     243   178   220     75    1,326
                                   not considered in
                                   HQ Analysis5

                                   Total Delivery            45     (48)   190   97   125     586   508   238     224   1,965
                                   Vehicles
                                   Source: Postal Service Vehicle Records
Vehicle Excesses                   In addition to vehicle overages noted above, Hurricane
Caused by Hurricane                Katrina eliminated 250 routes in the New Orleans Area on a
Katrina                            long-term basis. These vehicles were not destroyed in the
                                   storm. Postal Service management stated they will reassign
                                   vehicles already assigned to these routes and use them as
                                   necessary to reduce shortages or accommodate rural route
                                   requirements.

Rate of Delivery Vehicle           Delivery vehicles did not meet the established rate for
Utilization                        efficient utilization, as shown in the Table 2. Our review of
                                   delivery vehicle utilization rates for a 1-year period
                                   (July 2004 through June 2005) found that the Postal Service
                                   underused delivery vehicles. The goal for delivery and
                                   mixed delivery and collections (MDC) vehicle utilization is

4
  These numbers do not total to 615 because of Postal Service Headquarters averaging and rounding
factors. The actual total of the numbers represented is 639. The difference between the two totals does not
impact the outcome of this report.
5
  These are one- and two-ton vehicles delivery units use to deliver mail that were not considered in the
headquarters (HQ) analysis of delivery vehicles. Including these vehicles in the analysis further confirms
that the Postal Service has a minimum of 615 more delivery vehicles than required.

                                                        6
Management of Delivery Vehicle Utilization                                                                            DR-AR-06-005



                                95 percent. This is a factor of the number of days the
                                vehicle is available and the number of days the vehicle is
                                used. The Postal Service uses a 95 percent rate instead of
                                100 percent to allow for maintenance and unplanned events
                                that may affect utilization. (See Table 2.)
                                                                  Table 2: Delivery Vehicle Utilization Rate

                                       Area         NY     NE       EA      WE       PA     SW       SE        GL     CM     AVG     %
                                                                                                                              %     Under
                                                                                                                                    Goal
                                 Average            93.2   93.6     91.3    92.5    90.7    90.2    89.2       90.3   92.4   91.5    3.5
                                 Utilization Rate
                                 of Delivery
                                 Average            82.1   86.2     78.5    76.3    76.5    77.4    74.7       78.1   76.5   78.5   16.5
                                 Utilization Rate
                                 of MDC
                                Source: Postal Service Vehicle Records
                                The average utilization rate of delivery vehicles is below the
                                goal by 3.5 percent and vehicles assigned to MDC were
                                16.5 percent below the goal, therefore, neither met utilization
                                standards. Employees did not use the MDC vehicles
                                efficiently, in part, because of excess Postal Service-owned
                                and leased delivery vehicles available in the delivery vehicle
                                inventory. Additionally, unit officials either did not have or
                                use Postal Service (PS) Form 4569, Vehicle Use Plan.
                                These plans identify for every unit how employees use each
                                vehicle throughout the day and the vehicle’s route(s).

                                Since the Postal Service now has at its disposal at least
                                2,100 excess delivery vehicles, the opportunity exists to
                                reduce the planned purchase of right-hand drive vehicles
                                required for rural routes or to replace those given to rural
                                routes from city route inventories. We concluded that the
                                Postal Service can, at a minimum, use the 615 vehicles they
                                identified as excess in the May 2005 analysis. Using these
                                vehicles would reduce the planned purchase of rural route
                                vehicles from 6,240 vehicles to 5,625, saving approximately
                                $12 million.

Recommendation                  We recommend the acting vice president, Delivery and
                                Retail, direct the headquarters manager, Delivery Vehicle
                                Operations, to:

                                1. Review delivery vehicle inventories and reallocate
                                   delivery vehicles to eliminate Postal Service area-wide
                                   shortages, coordinate the results with the current
                                   headquarters review of right-hand drive vehicles




                                                    7
Management of Delivery Vehicle Utilization                                           DR-AR-06-005




                                     assigned to park and loop routes, and assign or
                                     reassign as necessary.

Management’s                    Management agreed with the intent of the recommendation
Comments                        and stated vehicle utilization and the analysis of carrier route
                                vehicles requirements is a recently implemented program
                                within Vehicle Operations. Management further stated they
                                are working with area and district personnel. Finally,
                                management stated they recently conducted reviews in
                                Washington, D.C.; Chicago; and Philadelphia and will
                                conduct similar reviews through 2006 and 2007.

Recommendation                  We recommend the acting vice president, Delivery and
                                Retail, direct the headquarters manager, Delivery Vehicle
                                Operations, to:

                                2.    Reduce the number of vehicles needed to meet the
                                      rural route requirements by a minimum of 615, based
                                      on vehicles identified by headquarters as excess.

Management’s                    Management agreed with the recommendation and
Comments                        acknowledged the reduction of 615 vehicles as an
                                opportunity to save $11.9 million in future purchases and will
                                address the option in the July 2006 mini-van purchase
                                Decision Analysis Report.

Recommendation                 3.     Monitor the redeployment of vehicles no longer
                                      required for New Orleans routes, as necessary, to
                                      include assignment to rural routes.

Management’s                    Management agreed with the recommendation and stated it
Comments                        is part of their strategy in dealing with the aftermath of this
                                major disaster. Management further stated that, to date,
                                they have assigned 23 vehicles to Dallas, Texas, and 15 to
                                Santa Fe, New Mexico. Management also stated that
                                Vehicle Operations would continue to work with district and
                                area personnel to coordinate reallocations, which will be
                                completed by July 2006. Management also stated our
                                report cites the route reduction and redeployment of delivery
                                vehicles from New Orleans to rural routes as
                                recommendations when Vehicle Operations already
                                identified the initiatives as part of its redeployment strategy.




                                              8
Management of Delivery Vehicle Utilization                                          DR-AR-06-005




Recommendation                  We recommend the acting vice president, Delivery and
                                Retail, in coordination with the senior vice president,
                                Operations, work with area vice presidents to:

                                4.    Monitor delivery vehicle inventories and reallocate
                                      vehicle inventories as needed to meet any shortages
                                      within the area.

Management’s                    Management agreed with the recommendation and stated
Comments                        they will monitor delivery vehicle inventories and reallocate
                                them to meet shortages. Management also stated Vehicle
                                Operations recently completed a review of vehicles in
                                Washington, D.C.; Chicago; and Philadelphia and will
                                perform similar reviews throughout 2006 and 2007.

Recommendation                  5.    Prepare a PS Form 4569, Vehicle Use Plan, for every
                                      vehicle assigned to each delivery unit.

Management’s                    Management agreed with the intent of this recommendation
Comments                        but had concerns about implementation because of manual
                                summarization of the forms. Management stated they
                                will explore an acceptable electronic alternative to preparing
                                PS Forms 4569 by December 2006.

Evaluation of                   Management’s comments are responsive to our finding and
Management’s                    recommendations 1 through 5. Management’s actions taken
Comments                        and planned should correct the issues identified in the
                                finding.




                                              9
Management of Delivery Vehicle Utilization                                                               DR-AR-06-005




    Delivery Vehicle                Postal Service officials made significant strides in reducing
    Leasing                         commercial vehicle leasing expenditures over the last
                                    3 years. Specifically, since the 2003 leasing memorandum
                                    was distributed, managing officials have reduced
                                    commercial leasing from about $10 million in 2002 to about
                                    $2 million in 2005. Further, during the course of the audit,
                                    some areas were working diligently to further reduce
                                    commercial leases. Except for emergency requirements,
                                    we did not identify any long-term leases for five of the
                                    nine Postal Service areas.

                                    Although Postal Service officials made improvements in
                                    reducing delivery leasing expenditures in recent years, our
                                    analysis showed increased improvements could save
                                    additional Postal Service funds. Specifically, Postal Service
                                    officials currently spend approximately $3 million on
                                    employee leases and about $2 million on commercial leases
                                    per annum, although there is a nationwide excess of Postal
                                    Service-owned delivery vehicles. Eliminating these leases
                                    would save the Postal Service $8 million over the next
                                    2 years.6

    Employee Leases                 Our analysis showed that Postal Service unit officials
                                    maintained over 700 active rental agreements with
                                    employees to use their personal vehicles for mail delivery.
                                    These agreements were established for, on average,
                                    between 4 and 10 years, with expenditures approximating
                                    $3 million annually. Although eight of the nine areas used
                                    employee leases, the majority of the leases were in the
                                    Great Lakes, Eastern, Northeast, Pacific, and New York
                                    Metro Areas. (See Chart 1.)




6
 The $8 million total is based on eliminating employee leases for $6 million ($3 million annually for 2 years)
and a one time savings of $2 million for the commercial leases. We did not project commercial lease
savings because of the Postal Service strives to reduce unnecessary commercial leases.

                                                      10
Management of Delivery Vehicle Utilization                                                                       DR-AR-06-005




                                Chart 1. Employee Leases by Area
                                                                        $60,885
                                                $120,598                            $25,202
                                                              194,295
                                                                                                        $1,554,355
                                             $202,553


                                         $326,912

                                                   $572,746



                                        Great Lakes                     Eastern               Pacific                Northeast
                                        New York                        Southwest             Western                Cap Metro

                                Source: Postal Service Vehicle Records


 Commercial Leases              Postal Service unit officials still pay about $2 million
                                annually to commercial vendors when Postal Service-owned
                                vehicles are available. There were two specific problems.
                                First, officials in three of the nine Postal Service areas
                                (Southeast, Eastern, and Great Lakes) authorized
                                commercial delivery vehicle leases, although the areas
                                had a surplus of Postal Service-owned delivery vehicles.
                                For example, the Chicago District had a shortage of
                                147 delivery vehicles. To help meet this need, area officials
                                authorized leases with commercial vendors for 143 vehicles.
                                However, based on the headquarters analysis of delivery
                                vehicle inventory, the Great Lakes Area had an overage of
                                18 vehicles, and significantly more if one- and two-ton
                                vehicles were considered. Second, the Northeast Area,
                                with a deficit of 48 delivery vehicles, authorized the leasing
                                of 230 employee and commercially leased vehicles,
                                significantly more vehicles than needed to meet the deficit.

                                These conditions existed because management did not
                                consistently follow Postal Service guidance requiring that
                                Postal Service-owned vehicles be used prior to leasing
                                non-owned vehicles. There was also generally inadequate
                                visibility and control of excess Postal Service-owned
                                delivery vehicles within the areas. Specifically:

                                    •      Area management did not have adequate control
                                           over the number of vehicles available and could not
                                           reallocate vehicles within their areas as necessary to
                                           meet district delivery requirements.

                                    •      Leases were frequently obtained at the unit or VMF
                                           level without area- or headquarters-level approval or
                                           knowledge. Employees did not complete PS
                                           Forms 4515, Vehicle Request, Review, and Approval

                                                       11
Management of Delivery Vehicle Utilization                                            DR-AR-06-005



                                          as required, thereby omitting area and headquarters
                                          from the justification and approval process.

                                     •    Procedures for identifying and monitoring vehicle
                                          leases were not available at the area level, and
                                          management did not conduct periodic reviews to
                                          ensure that current leases were justified.

                                     •    Management did not periodically monitor leases for
                                          delivery operations to ensure that lease expenditures
                                          were necessary.

 Recommendation                 We recommend the acting vice president, Delivery and
                                Retail, in coordination with the senior vice president,
                                Operations, work with area vice presidents to:

                                6.       Eliminate all unnecessary non-emergency employee
                                         leases and monitor efforts to eliminate unnecessary
                                         commercial leases used for delivery in areas where
                                         overages in Postal Service-owned delivery vehicles
                                         exist.

 Management’s                   Management agreed with the intent of the recommendation
 Comments                       and agreed in principle that $8 million in savings in non-
                                emergency employee leases and commercial leases is a
                                realistic opportunity. Management also stated that
                                eliminating all employee leases is unrealistic and may not
                                be in the best interest of the Postal Service.

 Evaluation of                  The OIG also recognizes that in some instances — such as
 Management’s                   when there is inadequate parking available — eliminating all
 Comments                       employee leases may not be feasible. The OIG attempted
                                to quantify the issue of inadequate parking in some districts
                                during the audit, but management did not provide actual
                                numbers. Management’s comments are responsive to our
                                finding and recommendation. Management‘s actions taken
                                and planned should correct the issues identified in the
                                finding.

 Recommendation                 7.       Maintain adequate management controls and
                                         reallocate delivery vehicles within each area as
                                         necessary to reduce the need for leasing.




                                                12
Management of Delivery Vehicle Utilization                                         DR-AR-06-005




 Management’s                   Management agreed with the recommendation and stated
 Comments                       Vehicle Operations is currently working with area and
                                district representatives to develop revised operating
                                procedures to access employee and commercial leasing
                                needs. Management also stated that Vehicle Operations
                                revised its policy on identifying excess vehicles to require
                                each area to manage these resources.

 Recommendation                 We recommend the acting vice president, Delivery and
                                Retail, in coordination with the senior vice president,
                                Operations, work with area vice presidents to:

                                8.     Reemphasize Postal Service policy requiring
                                       employees to complete PS Forms 4515, Vehicle
                                       Request, Review, and Approval, and obtain
                                       management approval prior to leasing.

 Management’s                   Management agreed with the recommendation and stated
 Comments                       that Vehicle Operations — in conjunction with Philadelphia
                                Vehicle Category Management Center and St. Louis
                                Accounting Center personnel — is in the process of
                                reissuing the vehicle leasing procedure. Management also
                                stated the revised vehicles leasing procedures will include
                                mandatory use of PS Form 4515. The estimated
                                completion date is July 2006.

 Recommendation                 9. Direct area vehicle maintenance program analysts to
                                   establish a mechanism to periodically monitor employee
                                   and commercial lease expenditures, revalidate
                                   justifications for continued leasing, and submit them to
                                   Postal Service Headquarters Delivery Vehicle
                                   Operations.

 Management’s                   Management agreed with the recommendation and stated
 Comments                       the revised vehicles leasing procedures will require
                                oversight of leasing activities by area personnel.

 Evaluation of                  Management’s comments are responsive to our finding and
 Management’s                   recommendations 7 through 9. Management‘s actions
 Comments                       taken and planned should correct the issues identified in the
                                findings.




                                             13
Management of Delivery Vehicle Utilization                                           DR-AR-06-005




 Controls Over Lease            Controls over payments to employees for the use of their
 Payments                       personal vehicles required additional management
                                attention. Analysis of employee lease payments for the
                                12-month period from July 2004 through June 2005
                                revealed:

                                      •    Numerous instances of excessive payments.
                                           Specifically, there were 243 payments of $400 or
                                           more per month to employees for use of their
                                           personal vehicles. Eighteen payments were made
                                           for at least $600 each – more than twice the monthly
                                           rate of a commercial or GSA lease.

                                      •    Management paid two employees at one unit for
                                           twice as many hours to deliver the mail than
                                           documentation shows they used. We notified
                                           management of the overpayment and management
                                           corrected the problem during our visit.

                                      •    Contracts existed for employees who were no longer
                                           with the unit. For example, at one unit we visited,
                                           seven of the 11 unit employees with active employee
                                           lease agreements were no longer there. However,
                                           we did not identify any payments to individuals no
                                           longer assigned to this unit.

                                Overall, controls in this area were inadequate. Neither unit
                                nor area officials monitored the reasonableness of
                                payments or the need for contracts. Additionally, unit
                                officials did not review payment data for accuracy or cost
                                benefit. Further, they did not understand procedures to
                                terminate contracts no longer required. Improved controls
                                and review of payment data could eliminate inaccuracies,
                                excessive payment amounts, and the likelihood of
                                mismanagement.

 Recommendation                 We recommend the acting vice president, Delivery and
                                Retail, in coordination with the senior vice president,
                                Operations, work with area vice presidents to:

                                10.       Review data on employee vehicle lease payments for
                                          accuracy and cost benefits.




                                                 14
Management of Delivery Vehicle Utilization                                          DR-AR-06-005




 Management’s                    Management agreed with the recommendation and stated
 Comments                        they will instruct field management on their responsibilities
                                 regarding reviewing lease payment data for accuracy. The
                                 estimated completion date is end of July 2006.

 Recommendation                 11. Terminate active contracts that are no longer required.

 Management’s                    Management agreed with the recommendation.
 Comments                        Management also stated they will instruct field management
                                 on their responsibilities regarding terminating active
                                 contracts that are no longer required. The estimated
                                 completion date is the end of July 2006.

 Evaluation of                   Management’s comments are responsive to our finding and
 Management’s                    recommendations 10 and 11. Management‘s actions taken
 Comments                        and planned should correct the issues identified in the
                                 finding.




                                              15
Management of Delivery Vehicle Utilization                                          DR-AR-06-005




                                       APPENDIX A

              COST SAVINGS METHODOLOGY: NATIONWIDE
               MONETARY IMPACT OF REDUCING VEHICLE
             ACQUISITIONS AND ELIMINATING EMPLOYEE AND
                COMMERCIAL DELIVERY VEHICLE LEASES

                                 Cost Savings Methodology

         Employee Lease Costs                     Annual       Two Years      Total Savings
                 Unrecoverable Costs (12 APs)                                       $3,057,546
                 Eliminating Employee Leases      $3,057,546     $6,115,092         $6,115,092
         Commercial Lease Costs
                  Unrecoverable Costs (AP1-9)                                       $1,663,329
         Reducing Vehicle Acquisitions
                   615 vehicles at $19,448 each                                    $11,960,520
                                  Total Savings                                    $22,796,487




                                             16
Management of Delivery Vehicle Utilization                 DR-AR-06-005



                       APPENDIX B. MANAGEMENT’S COMMENTS




                                             17
Management of Delivery Vehicle Utilization        DR-AR-06-005




                                             18
Management of Delivery Vehicle Utilization        DR-AR-06-005




                                             19
Management of Delivery Vehicle Utilization        DR-AR-06-005




                                             20
